Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 MANDATORY MANAGED CARE

         Children’s Access to
    Medicaid Mental Health Services




                   JUNE GIBBS BROWN
                   Inspector General

                      JANUARY 2000
                      OEI-04-97-00344
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and Human
Services programs as well as the health and welfare of beneficiaries served by them. This statutory
mission is carried out through a nationwide program of audits, investigations, inspections, sanctions, and
fraud alerts. The Inspector General informs the Secretary of program and management problems and
recommends legislative, regulatory, and operational approaches to correct them.

                         Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers, Regional
Inspector General, and Christopher H. Koehler, Deputy Regional Inspector General. Principal OEI
staff included:

REGION                                               HEADQUARTERS

Dwayne Grant, Lead Analyst                           Alan Levine, Program Specialist

Betty Apt                                            Barbara Tedesco

Josiah Townsel                                       Brain Ritchie

Janet Miller                                         Joan Richardson



To obtain copies of this report, please call the Atlanta Regional Office at 404-562-7723. Reports are

also available on the World Wide Web at our home page address:


                               http://www.dhhs.gov/progorg/oei
                              TABLE OF CONTENTS
                                                                                                                                     PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS

      Access to Care is Limited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Responsibility for Care is Fragmented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          States Attempt to Improve Coordination and Access . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


APPENDICES

    A: Summary of First Year Contracts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


                     HCFA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


                     SAMHSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

                         EXECUTIVE SUMMARY

PURPOSE
         To describe access to Medicaid mental health services under mandatory managed care for
         children with serious emotional disturbances.

BACKGROUND

         States are increasingly converting their Medicaid programs from traditional fee for service
         models to managed care models. Nearly every State has implemented, or is planning to
         implement, mandatory managed care for Medicaid beneficiaries who require mental health
         services. These mandatory managed care contracts typically include services for both adults and
         children.

         We did not specifically focus our inspection on provision of mental health care to children.
         However, while completing our inspection on Mandatory Managed Care - Changes in Medicaid
         Mental Health Services (OEI-04-97-00340), we observed specific problems with children’s
         access to care. This report describes our specific observations related to access to mental
         health services by children with serious emotional disturbances.

         We used a case study approach for reviewing mandatory mental health managed care programs
         in seven States. We integrated, compared, and summarized documentary and testimonial
         evidence obtained from State Medicaid managed care offices and mental health departments.
         We also interviewed managed care organization officials, mental health providers, and
         stakeholders for children’s mental health. We did not validate the testimonial evidence,
         however, the views of program operators and stakeholders were generally similar and consistent
         with documentary evidence. Therefore, we believe their opinions provide useful insight into early
         managed care programs and the accessibility of services for children with serious emotional
         disturbances.

FINDINGS

Respondents said that providing mental health services to children with serious emotional disturbances
can present unique challenges not typically found when delivering services to adults. These challenges
are generally systemic in nature and have existed for years under traditional fee for service care.

Although conversion to managed care does offer State Medicaid programs opportunities to improve
mental health services for children, respondents told us that conversion can also intensify existing
problems. When implementing mandatory managed care systems, States should be aware of obstacles
that can interfere with access to mental health services for children.



Mandatory Managed Care - Children’s Access to Care                                    OEI-04-97-00344
                                                     1
Access To Care Is Limited

          <       Reductions of in-patient care for children was greater than that for adults.
          <       Children’s out-patient services lag behind those for adults.
          <       First year managed care contracts included limited provisions for children.

Responsibility for Care Is Fragmented

          <       Respondents were concerned about possible cost shifting.
          <       Multiple State agencies have responsibility.

States Attempt to Improve Coordination and Access

          <	      States have negotiated interagency agreements and reported improved coordination, but
                  access to care by children is still limited.


RECOMMENDATIONS

Children’s mental health out-patient services have increased after implementation of mandatory managed
care. However, children’s access to mental health services is still limited, and the provision of care is
fragmented. While attempts by some States to reduce fragmentation seem promising, most respondents
agree more needs to be done. Accordingly, we recommend that HCFA encourage States to:

         Specify services for children’s mental health care in managed care
         contracts.

         Children’s services appeared to be an afterthought in State’s first year managed care contracts.
         Providing more detailed specifications on services managed care organizations will provide will
         help ensure that children receive the specialized care they require.


         Develop interagency agreements to promote coordination of children’s
         mental health services.

         Better coordination of care and improved services for children were reported in States where
         agencies have established such agreements. Establishing closer working relationships also
         reduced cost shifting concerns among agencies.




Mandatory Managed Care - Children’s Access to Care                                        OEI-04-97-00344
                                                     2
AGENCY COMMENTS

Both HCFA and SAMHSA commented on our draft report.

HCFA concurred with our recommendation to encourage States to specify services for children’s mental
health care in managed care contracts. They prepared draft Interim Review Criteria for Children with
Special Needs. States that mandatorily enroll children in capitated plans will be required to respond to
the criteria as part of the waiver process.

Additionally, HCFA concurred with our recommendation to encourage States to develop interagency
agreements to promote coordination of children’s mental health services. HCFA plans to highlight the
importance of such coordination in their imminent Report to Congress on special needs of vulnerable
populations enrolled in Medicaid managed care.

SAMHSA commented that a number of our recommendations were useful, but expressed concern
about drawing conclusions from what they believe is a study method that is not “scientific.” We wish to
emphasize that we used a case study method for our inspection. In describing our methodology we
included a detailed explanation of the advantages and limitations of our case study approach. The
limitations we point out are similar to those described by SAMHSA.

SAMHSA noted that the overall lack of consistent, detailed data was a possible major finding from our
study. We agree. However, the problem is not limited to only children’s programs. It is an issue we
deal with explicitly in a companion report that addresses both children and adult mental health care.
That report is titled Mandatory Managed Care: Changes in Medicaid Mental Health Services (OEI-
04-97-00340).

Additionally, SAMHSA expressed concern that we may not have adequately included the views of
State mental health staff and stakeholders. As shown in our methodology, we considered input from
such groups as highly important. To illustrate, we interviewed at least 37 State mental health staff and
stakeholders.

We made several technical changes suggested by SAMHSA.

The full text of HCFA and SAMHSA comments are in Appendix B.




Mandatory Managed Care - Children’s Access to Care                                     OEI-04-97-00344
                                                     3
                                   INTRODUCTION

PURPOSE

         To describe access to Medicaid mental health services under mandatory managed care for
         children with serious emotional disturbances.

BACKGROUND

         States are increasingly converting their Medicaid programs from traditional fee for service
         models to managed care models. As of June 1998, over 16.5 million Medicaid beneficiaries
         were participating in some type of managed care program. This represents over 53 percent of
         the Medicaid population.1

         Nearly every State has implemented, or is planning to implement, mandatory managed care for
         Medicaid beneficiaries who require mental health services. As of July 1998, 36 States have
         implemented mandatory mental health managed care programs.2 These mandatory managed
         care contracts typically including services for both adults and children.

         We did not specifically focus our inspection on provision of mental health care to children.
         However, while completing our inspection on Mandatory Managed Care - Changes in Medicaid
         Mental Health Services (OEI-04-97-00340) we observed specific problems with children’s
         access to care. This report describes our specific observations related to access to mental
         health services by children with serious emotional disturbances.

Medicaid Eligible Children

         Children can qualify for Medicaid in several ways. Children are generally eligible for Medicaid
         benefits if they are under age 21 and their families’ income is low. Additionally, most States
         extend eligibility to children who have qualified for the Supplemental Security Income Children’s
         Program. States also generally include children that qualify under special home and community-
         based waivers.

Serious Emotional Disturbances

         Children, up to age 18, who currently or any time in the past year have had a diagnosable
         mental, behavioral, or emotional disorder that results in functional impairment which substantially
         interferes with or limits the childs role or functioning in family, school, or community activities is
         defined as seriously emotionally disturbed.3




Mandatory Managed Care - Children’s Access to Care                                        OEI-04-97-00344
                                                     4
         An estimated 1 in 10 children are reported to have a serious emotional disturbance at any given
         time.4 In fact, the estimated prevalence rate of serious emotional disturbances for children is
         higher than the prevalence rate of serious mental illnesses for adults – about 9 percent for
         children verses about 6 percent for adults.5

         Some of the more commonly recognized disabling types of mental illnesses that effect both adults
         and children includes schizophrenia, bipolar disorder, major depression, obsessive-compulsive
         disorder, and panic disorder. Children with serious emotional disturbances may also be
         commonly diagnosed with attention deficit disorder, autism, pervasive development disorder, or
         Tourette's syndrome.

METHODOLOGY

State Selection

         We reviewed mental health managed care programs for seven States. They were Arizona,
         Massachusetts, North Carolina, Utah, Washington, Iowa, and Colorado. We selected all States
         (five) that had been under a mandatory managed care program for persons with serious mental
         illnesses for at least three years as of April 1997.6 We selected the remaining two States, Iowa
         and Colorado, at the request of HCFA. Although Iowa and Colorado had only been under
         managed care for about 2 years at the time of our inspection,7 HCFA staff said they were
         generally recognized as having innovative programs.

         All of the States surveyed, except North Carolina, included both adults and children in their
         mandatory managed care mental health contracts. North Carolina only contracted for the mental
         health care for children.8 For comparison purposes, we provided a general description of each
         selected State program in Appendix A.

Document Review

         At each selected State, we reviewed key Medicaid and mental health program documentation
         showing program implementation, status, and access to care for children with serious emotional
         disturbances. To illustrate, we analyzed the first year managed care contract for each selected
         State. We also analyzed requests for proposals, managed care waiver requests, State progress
         reports, internal and external studies and reviews on program operations, beneficiary satisfaction
         survey results, complaint and grievance reports, in-patient and out-patient care data and reports,
         mental health program costs, and records on beneficiary utilization.

         We also conducted an Internet search to review managed care research involving children with
         serious emotional disturbances. Finally, we reviewed professional journals, studies and
         publications on State Medicaid programs and mental illnesses.




Mandatory Managed Care - Children’s Access to Care                                      OEI-04-97-00344
                                                     5
Interviews

         We interviewed 23 Medicaid managed care and mental health staff members in our survey
         States. From those officials, we obtained an understanding of how individual States
         implemented and operated Medicaid mandatory mental health programs. Finally, we obtained
         the views of State Medicaid and mental health staff on program changes for children with serious
         emotional disturbances.

         Also, we interviewed 16 managed care officials and mental health care providers, as well as 21
         mental health stakeholders 9 in our survey States. We obtained the views of both groups on
         program operations and children’s mental health services. We were particularly interested in
         their views on the accessibility to services for children after States converted to a mandatory
         managed care system. We selected managed care officials, mental health providers, and
         stakeholders based on recommendations from State Medicaid staff.

Advantages and General Limitations

         We used a case study approach to analyze the access to services of children with serious

         emotional disturbances under mandatory managed care. The advantage of this approach was

         that it allowed us to get the benefit of first-hand experiences from State officials, managed care 

         representatives, mental health providers, and stakeholders. Our methods have general

         limitations in that the States or sites selected may not be typical, and we did not verify all 

         testimonial information they provided to us. The information is also limited, because it reflects

         operations that occurred over a 2 to 3-year period starting with each State’s first year contract. 

         We are aware that State Medicaid managed care systems have continued to evolve with each

         new contract and waiver, and that program structure in our surveyed States may be quite

         different today from their initial managed care contracts.


         The differences in program data reported by States, and the general lack of available children’s

         data limits our ability to generalize across State programs. Each State Medicaid program

         collects and reports data differently. To illustrate, one State distinguished between services

         provided to children with serious emotional disturbances and children with less serious problems,

         while another State did not. Another State did not distinguish between care provided to adults

         and children when providing utilization data.


         We integrated, compared, and summarized documentary and testimonial evidence obtained from

         State Medicaid managed care offices and mental health departments. We also interviewed

         managed care officials, mental health providers, and stakeholders for children’s mental health. 

         We did not validate the testimonial evidence, however, the views of program operators and

         stakeholders were generally similar and consistent with documentary evidence. Therefore, we

         believe their opinions provide useful insight into early managed care programs and access for

         children with serious emotional disturbances.





Mandatory Managed Care - Children’s Access to Care                                        OEI-04-97-00344
                                                     6
Companion Reports

         This report is our third on mandatory managed care and Medicaid mental health services.

         The first report is titled Mandatory Managed Care - Changes in Medicaid Mental Health
         Services (OEI-04-97-00340) It provides an early look at the changes that mandatory managed
         care had on State Medicaid mental health services for persons with serious mental illnesses. The
         report highlights program changes that affected both adults and children.

         The second report is titled Mandatory Managed Care - Early Lessons Learned by Medicaid
         Mental Health Programs (OEI-04-97-00343). It highlights common program characteristics
         and implementation practices as guidance to other States that plan to convert to mandatory
         managed care.

                                     _____           ____   ____   _____

         We did our field work between May 1997 and July 1997. While conditions regarding mental
         health services in managed care settings may have changed since then, our report reflects
         conditions and patterns of care in the first few years of converting fee for service programs to
         managed care. Wherever possible we have updated our background information. We
         conducted the inspection in accordance with Quality Standards for Inspections issued by the
         President’s Council on Integrity and Efficiency.




Mandatory Managed Care - Children’s Access to Care                                       OEI-04-97-00344
                                                            7
                                             FINDINGS
Respondents said that providing mental health services to children with serious emotional disturbances
can present unique challenges not typically found when delivering services to adults. These challenges
are generally systemic in nature and have existed for years under traditional fee for service care.

Although conversion to managed care does offer State Medicaid programs opportunities to improve
mental health services for children, respondents told us that conversion can also intensify existing
problems. States should be aware of the obstacles that can interfere with access to mental health
services for children when implementing mandatory managed care systems.

Access To Care Is Limited
Reductions of In-patient Care for Children was Greater Than That for Adults

         Utilization of in-patient services have generally decreased under managed care for all
         populations. However, the reduction of in-patient services for children has been the most
         dramatic. For example, one State reported that children utilizing in-patient care was down
         almost 40 percent, as compared to a decrease of 2 percent by adults for the same period.
         Another State reported a 30 percent decrease in psychiatric hospital admissions for children, as
         compared to a decrease of about 6 percent by adults during the same period.

         Because detailed data was almost non-existent, we could not determine the actual extent to
         which access to needed in-patient services had been decreased. Generally, the only available
         data was satisfaction surveys and grievance files, but they generally did not reveal the large
         decrease of in-patient care as a problem. However, the results of the data may not be reliable
         indicators on accessibility of in-patient care.

         Stakeholders in five of the seven surveyed States believed that managed care organizations were
         making it more difficult for children to be admitted into psychiatric hospitals. They said while in-
         patient care was often difficult under fee for service, the new managed care organizations
         implemented even more narrow criteria for hospital admission. Due to the more restrictive
         admission criteria, stakeholders said that children must go too far into a crisis situation before
         hospitalization is authorized. Stakeholders complained that approval and denial of hospitalization
         is often based only on what the clinicians observe during their evaluation. They said the clinicians
         do not consider what the parents and others observed in the hours or days proceeding their
         evaluation.

         Further, stakeholders in all States were concerned that children were being removed from
         psychiatric hospitals too quickly. They generally believe however, that out-patient care provides
         a better treatment environment for children and that in-patient care was relied upon too heavily
         under the fee for service system.


Mandatory Managed Care - Children’s Access to Care                                      OEI-04-97-00344
                                                     8
         Controlling access to expensive in-patient services and substituting less expensive out-patient
         services is a standard managed care practice. It reduces managed care costs. It is also
         generally regarded by Medicaid staff as being a more effective and appropriate treatment than
         in-patient care. This is particularly true for children because family involvement can play an
         important role in treatment plans.

Children’s Out-patient Services Lag Behind Those for Adults

         State Medicaid representatives and stakeholders told us that under fee for service, children’s
         access to mental health out-patient services was below that for adults. Under mandatory
         managed care, State representatives noted that the gap between adults and children’s care still
         exists despite the addition of several new alternative out-patient children’s services such as:
         respite care, family support services, in-home treatment, and school based programs.

         All State Medicaid representatives reported that out-patient programs have expanded under
         mandatory managed care. However, the number of children that access services are still
         generally below the level of access for adults. For example, one State reported that the
         percentage of adult enrollees accessing out-patient services was over twice that for children
         (123.7 per 1000 vs 54.8 per 1000). Another State reported that about 6 percent of eligible
         adults accessed out-patient services, while only about 3 percent for eligible children accessed
         out-patient services.

         Part of the problem stemmed from the lack of available services. To illustrate, prior to managed
         care, some State Community Mental Health Centers did not even offer children mental health
         services. Further, when implementing mandatory managed care States generally implemented
         program improvements in the adult system before expanding them to the children’s system.
         Finally, under mandatory managed care, States generally did not emphasize children’s programs
         in their first year managed care contracts.

First Year Managed Care Contracts Included Limited Provisions for Children

         In the six States that provided mandatory managed mental health care to both adults and
         children, State first year contract request for proposals included few provisions that specifically
         addressed children’s care issues. Typically, care for children was addressed by adding the
         contract language “and children” to care areas generally designed for adults, and by included a
         short paragraph stating that managed care organizations will provide services to children.




Mandatory Managed Care - Children’s Access to Care                                        OEI-04-97-00344
                                                     9
Responsibility for Care Is Fragmented
Respondents Concerned About Potential Cost Shifting

         Medicaid representatives in five of the seven surveyed States expressed a concern that placing
         mental health services under a capitated (flat fee) payment arrangement would increase the
         incentive for managed care organizations to shift care to other State agencies, such as the
         juvenile justice, child welfare, or education system, in order to reduce costs. They said that
         when multiple State agencies provide overlapping services to the same population, and such
         agencies have their own independent budgets, cost shifting is a strong possibility. Several State
         representatives told us that it was not uncommon for one agency to accuse another of “dumping”
         children on their agency, especially those children requiring long-term care.

         We did not specifically determine an adverse impact on children resulting from cost shifting.
         However, several State representatives said it could happen. To illustrate, State child welfare
         agencies often provide mental health treatment under Medicaid fee for service to children they
         have placed in residential treatment centers. In that State, the State Medicaid representatives
         expressed concern that managed care organizations would attempt to refer children to the
         residential treatment centers to reduce their in-patient psychiatric care costs. Medicaid staff in
         another State were so concerned about the likelihood of cost shifting that they convened a
         monthly committee to review the issue.

         The data in one State tended to collaborate the concerns about cost shifting. The data showed
         that the number of placements in residential treatment centers increased about 5 percent over
         what was expected under fee for service prior to conversion to managed care. However, the
         data was inadequate to determine the causes of the increase.

Multiple State Agencies have Responsibility

         A variety of State and Federal children’s programs have evolved over the years. In our survey
         States a minimum of five agencies were responsible for providing various levels of mental health
         services to children. These programs include the health system, education system, social
         services, substance abuse, and juvenile justice system. Children with serious emotional
         disturbances have complex needs, and could require services from one or all of the State
         programs. However, no one program or system has the responsibility and expertise to
         coordinate or meet all the needs of the mentally ill, particularly when that person is a child.

         Responsibilities for the different children’s programs fall under different State agencies, all with
         different budgets and priorities. They tend to work independently which has caused a
         fragmented system of care for children. For example, State representatives told us that while
         State mental health agencies have program staff and resources to furnish mental health services


Mandatory Managed Care - Children’s Access to Care                                        OEI-04-97-00344
                                                     10
         to children, they generally must wait for referrals from other agencies. State mental health
         agencies do not have daily contact with children that other agencies such as school and juvenile
         justice systems do. However, while the schools and juvenile justice systems have daily access to
         children, they do not typically have staff and resources to address their mental health needs.
         Also, if a State mental health agency observed social and developmental issues while providing
         mental health services to a child they typically had to refer the child back to the school system,
         or social services agency.

         Without coordination of care among multiple State agencies, stakeholders said that children
         often become proverbial footballs, being passed back and forth between systems. They said
         that this passing back and forth between agencies typically results in children not receiving
         needed mental health care. Further, often just determining which agency is responsible for
         providing care is difficult, at best, because of the multiple physical and social needs of child with
         serious emotional disturbances.



States Attempt to Improve Coordination and Access
         States have undertaken a variety of strategies to increase agency cooperation. Some of the
         State strategies are highlighted below.

                  One State passed legislation requiring agencies to work together. This initiative has
                  resulted in State law that requires the health, education, and court system to work
                  together to provide better services to children.

                  Two States are testing programs that establish one case manager and one agency to
                  represent all children’s service systems. The pilot programs are designed to minimize
                  costs, increase access to available and needed services, and reduce duplication of
                  multiple case coordination.

         Other States have established voluntary agreements between children’s agencies, and
         committees to assist with program integration.

         In all cases where an interagency agreement or committee was established, stakeholders and
         State officials reported better coordination of care and improved services. However, State
         Medicaid staff said that coordination and access problems still exist, despite the interagency
         agreements.




Mandatory Managed Care - Children’s Access to Care                                        OEI-04-97-00344
                                                     11
                             RECOMMENDATION

Children’s mental health out-patient services have increased after implementation of mandatory managed
care. However, children’s access to mental health services is still limited, and the provision of care is
fragmented. While attempts by some States to reduce fragmentation seem promising, most respondents
agree more needs to be done. Accordingly, we recommend that HCFA encourage States to:


         Specify services for children’s mental health care in managed care

         contracts. Children’s services appeared to be an afterthought in State’s first year managed

         care contracts. Providing more detailed specifications on services managed care organizations

         will provide will help ensure that children receive the specialized care they require.


         Develop interagency agreements to promote coordination of children’s

         mental health services. Better coordination of care and improved services for children

         were reported in States where agencies have established such agreements. Establishing closer

         working relationships also reduced cost shifting concerns among agencies.





Mandatory Managed Care - Children’s Access to Care                                    OEI-04-97-00344
                                                     12
                            AGENCY COMMENTS

Both HCFA and SAMHSA commented on our draft report.

HCFA concurred with our recommendation to encourage States to specify services for children’s mental
health care in managed care contracts. They prepared draft Interim Review Criteria for Children with
Special Needs. States that mandatorily enroll children in capitated plans will be required to respond to
the criteria as part of the waiver process.

Additionally, HCFA concurred with our recommendation to encourage States to develop interagency
agreements to promote coordination of children’s mental health services. HCFA plans to highlight the
importance of such coordination in their imminent Report to Congress on special needs of vulnerable
populations enrolled in Medicaid managed care.

SAMHSA commented that a number of our recommendations were useful, but expressed concern
about drawing conclusions from what they believe is a study method that is not “scientific.” We wish to
emphasize that we used a case study method for our inspection. In describing our methodology we
included a detailed explanation of the advantages and limitations of our case study approach. The
limitations, we point out, are similar to those described by SAMHSA. Our goal was to take advantage
of the early experience of some States to guide implementation of other States who are using a managed
care approach for mental health services. We are confident that our readers will interpret our findings in
the context of the methodology which we described. SAMHSA’s thoughtful comments will also help
our readers avoid the pitfalls of over generalization.

SAMHSA noted that the overall lack of consistent, detailed data was a possible major finding from our
study. We agree. However, the problem is not limited to only children’s programs. It is an issue we
deal with explicitly in a companion report that addresses both children and adult mental health care.
That report is titled Mandatory Managed Care: Changes in Medicaid Mental Health Services (OEI-
04-97-00340).

Additionally, SAMHSA expressed concern that we may not have adequately included the views of
State mental health staff and stakeholders. As shown in our methodology, we considered input from
such groups as highly important. To illustrate, we interviewed at least 37 State mental health staff and
stakeholders.

We made several technical changes suggested by SAMHSA. For example, we clarified Appendix A to
show services that were excluded from risk by managed care organizations during their first year
contracts.

We present full text of HCFA and SAMHSA comments in Appendix B.

Mandatory Managed Care - Children’s Access to Care                                     OEI-04-97-00344
                                                     13
                                                                             APPENDIX A


  Summary: First Year Medicaid Managed Care Mental Health Contracts


         Start   Waiver                                                 Initial      Services
 State   Date    Type              Type of MCO             Coverage      Area      Excluded for
                                                                       Covered      MCO Risk
 AZ      Jan     1115      Non-profit, public sector,      Adults     Statewide
         1992              CMHCs*                          and
                                                           Children
 CO      Aug     1915(b)   Most areas non-profit, public   Adults     6 test       State hospital
         1995              sector CMHCs.                   and        areas.       & drugs
                           Two rural areas - partnership   Children   Excluded
                           between public sector                      largest
                           CMHCs and private, for-                    metro area
                           profit companies
 IA      Mar     1915(b)   one private for-profit          Adults     Statewide    State hospital
         1995              company for whole State         and                     & drugs
                                                           Children
 MA      Jan     1915(b)   one private for-profit          Adults     Statewide    State hospital
         1992              company for whole State         and                     & drugs
                                                           Children
 NC      Jan     1915(b)   Non-profit, public sector       Children   11           Outpatient
         1994              CMHCs                           Only       counties,    care
                                                                      approx
                                                                      25% of
                                                                      state
 UT      Jul     1915(b)   non-profit, public sector       Adults     8 of 11      State
         1991              CMHCs                           and        areas.       Hospitals
                                                           Children   80% of
                                                                      Medicaid
                                                                      population
 WA      Jul     1915(b)   Non-profit public sector        Adults     6 of 14      In-patient
         1993              system                          and        areas.       care
                                                           Children   66% of
                                                                      Medicaid
                                                                      population

* Community Mental Health Centers


                                                 14

                                                                      APPENDIX B



                                Agency Comments

Health Care Financing Administration (HCFA)

Substance Abuse and Mental Health Services Administration (SAMHSA)





                                           15

16

17

18

19

20

21

                                                                               ENDNOTES




1. National Summary of Medicaid Managed Care Programs and Enrollment, Medicaid Managed care
Enrollment Report, Health Care Financing Administration, June 30, 1998


2. State Profiles on Public Sector Managed Behavioral Health Care and Other Reforms. Managed
Care Tracking System, Substance Abuse and Mental Health Services Administration, July 31, 1998

3. Federal Register, Volume 58, Number 96, May 20, 1993 page 29425

4. Prevalence of Serious Emotional Disturbance in Children and Adolescents. Mental Health, United
States, 1996. Center for Mental Health Services, Substance Abuse and Mental Health Services
Administration, 1996

5. ibid

6. Oregon and Tennessee have been under managed care for a minimum of three years, but did not
phase in their seriously mentally ill populations until January 1995 and July 1996 respectively.

7. Iowa implemented March 1995. Colorado implemented July 1995.

8. In February 1999, North Carolina requested to withdraw its 1915(b) waiver extension of the
Carolina Alternatives Program. The State proposes to move all recipients back to a fee for service
system on or before June 30, 1999.

9. For the purpose of this report, stakeholders include family members of children with serious
emotional disturbances, and State and national mental health organizations representing children with
serious emotional disturbances. The organizations include such groups as the National Alliance for the
Mentally Ill, The America Psychiatric Association, and The Federation of Families for Children’s
Mental Health.




                                               22

